      AUDIT REPORT

   COSTS CLAIMED BY THE
     STATE OF LOUISIANA,
DEPARTMENT OF WILDLIFE AND
 FISHERIES, UNDER FEDERAL
  ASSISTANCE GRANTS FROM
 THE U.S. FISH AND WILDLIFE
  SERVICE FROM JULY 1, 2000,
    THROUGH JUNE 30, 2002




       Report No. R-GR-FWS-0023-2003
                     DECEMBER 2003
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                    External Audits Division
                              12030 Sunrise Valley Drive, Suite 230
                                       Reston, VA 20191

                                                                               December 22, 2003

                                    AUDIT REPORT
Memorandum

To:            Director,
               U.S. Fish and Wildlife Service

From:          Joe Ansnick
               Director of External Audits

Subject:       Final Audit Report on Costs Claimed by the State of Louisiana, Department of
               Wildlife and Fisheries, under Federal Assistance Grants from the U.S. Fish and
               Wildlife Service from July 1, 2000, through June 30, 2002
               (No. R-GR-FWS-0023-2003)
                                        Introduction
       This report presents the results of our audit of costs claimed by the State of Louisiana,
Department of Wildlife and Fisheries (Department) Under Federal Assistance grants from the
U.S. Fish and Wildlife Service (FWS) for the period July 1, 2000, through June 30, 2002.

Background and Scope
        The Pittman-Robertson Wildlife Restoration Act, as amended (16 U.S.C. 669), and the
Dingell-Johnson Sport Fish Restoration Act, as amended (16 U.S.C. 777) (the Acts), authorize
FWS to provide Federal Assistance grants to states to enhance their sport fish and wildlife
programs. The Acts provide for FWS to reimburse the states up to 75 percent of the eligible
costs incurred under the grants. The Acts specify that state hunting and fishing license revenues
cannot be used for any purpose other than the administration of the state’s fish and game
agencies.

        As requested by FWS, we performed a financial and compliance audit of Federal
Assistance grants to the State of Louisiana. The objective of our audit was to evaluate: (1) the
adequacy of the Department’s accounting system and related internal controls; (2) the accuracy
and eligibility of the direct and indirect costs claimed under the Federal Assistance grant
agreements with FWS; (3) the adequacy and reliability of the Department’s hunting and fishing
license fee collection and disbursement process; (4) the adequacy of the Department’s asset
management system and related internal controls with regard to purchasing, maintenance, control
and disposal and (5) the adequacy of the Department’s compliance with the Acts’ assent
legislation requirements. The audit was also to include an analysis of other issues considered
sensitive and/or significant to FWS. The audit work at the Department covered claims totaling
approximately $24 million on FWS grants that began after June 30, 2000, and were open during
the State’s fiscal years ended June 30, 2001, and 2002 (see Appendix 1).

       Our audit was performed in accordance with the government auditing standards issued by
the Comptroller General of the United States. Accordingly, we included such tests of records
and other auditing procedures that were considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the
Department to the grants; interviews with employees to ensure that all personnel costs charged to
the grants were supportable; and a review of the Department's use of fishing and hunting license
revenues to determine whether the revenues had been used for program purposes. We did not
evaluate the economy, efficiency, and effectiveness of the Department’s operations.

        Our audit was performed at the Louisiana Department of Wildlife and Fisheries
headquarters in Baton Rouge, Louisiana. We also visited the Lacombe hatchery and several
wildlife management areas and boat ramps (see Appendix 2).

Prior Audit Coverage
        On November 6, 1998, we issued audit report No. 99-E-84, “Audit of U.S. Fish and
Wildlife Service Federal Aid Grants to the State of Louisiana, Department of Wildlife and
Fisheries for Fiscal Years Ended June 30, 1995 and 1996.” On June 26, 2002, the Legislative
Auditor for the State of Louisiana issued a Procedural Report covering various aspects of the
Department. In addition, the Department’s Internal Auditor issued several reports during the
period covered by our review. We reviewed these reports and followed up on all significant
findings to determine whether they had been resolved prior to our review. We included two
areas in this report because they had not been addressed satisfactorily: the charging of common
costs and certain unallowable costs.

                                     Results of Audit
       Our review disclosed the following:

   •   Costs of $167,463 (Federal share) were questioned because they were: not supported by
       in-kind contributions ($97,064), not applicable to the Federal Assistance grants
       ($52,540), and claimed for a project that was not completed ($17,859).

   •   The Department did not report program income of $479,657.

   •   The State of Louisiana’s assent legislation allows for the transfer of license revenues
       from the Conservation Fund to other funds where they may be used for purposes other
       than the administration of the Department of Wildlife and Fisheries.




                                                2
   • Improvements are needed in the Department’s annual license certifications, project level
       accounting, asset management, charging of common costs, and posting of Federal
       Assistance signs.

       The Department responded to a draft of this report on September 9, 2003, addressing
each of the findings listed below. Based on the Department’s responses, we modified the
findings and recommendations as necessary to clarify the issues and to incorporate any
additional information provided. We have included the responses after our recommendations to
resolve each finding. The FWS did not respond to the draft of this report.

A. Questioned Costs

       1. In-Kind Contributions. The Department did not maintain supporting records for all
in-kind contributions. Department officials could only find Volunteer Instructor Time and
Activity Record(s) to support 1,593 hours for the Aquatic Education Program Grant (F-65-13).
As a result, the Department could not support $200,663 of in-kind contributions.

        According to 43 CFR § 12.64(b)(6), costs must be verifiable to the grantees records, and
to the extent feasible, volunteer services should be supported by the same methods the
organization uses to support regular personnel costs. Since source documentation could be
provided for only $24,692 of in-kind contributions for this grant (applicable to the 1,593 hours
supported), only $74,076 of Federal share was matched by in-kind contributions (the agreed
upon cost split was 25 percent State and 75 percent Federal). We have questioned the $97,064
difference between the $74,076 supported by in-kind contributions and the $171,140 Federal
share drawn down.

Recommendations

       We recommend that the U.S. Fish and Wildlife Service (FWS):

       a. Resolve the $97,064 of questioned costs.

       b. Determine whether the documentation for the subject in-kind contributions is accurate
and sufficient to support the applicable Federal share drawn down.

Department Response

        Departmental officials stated that the supporting records for the subject in-kind
contributions have been located and they attached copies of that documentation to their response.
In addition, the Department contended that the questioned costs should have been calculated as
$32,355, the difference between the $24,692 of in-kind contributions supported and the $57,047
required match for the $171,140 drawn down.

Office of Inspector General Comments

       Since the Department’s response indicated that the supporting documentation has been
located, we have revised our Recommendation A.1.b. Accordingly, FWS should review the


                                                3
documentation and determine whether the records are accurate and adequate to support the
Federal share drawn down. We do not agree, however, that the questioned costs were calculated
incorrectly as they pertain to the Federal share drawn down and not the State share (in-kind
contributions). Since only $24,692 of in-kind contributions was supported, only $74,076 of
Federal share was matched. As a result, the questioned costs were properly calculated as
$97,064, the difference between the $74,076 supported by in-kind contributions and the
$171,140 Federal share drawn down. FWS should resolve the finding and implement the
recommendations.

        2. Unallowable Costs. The State of Louisiana’s Single Audit for State fiscal year (SFY)
2001 disclosed that, based on an internal audit conducted by the Department, a senior official of
the Department made $52,540 in questionable purchases charged to the Sport Fish Restoration
grants (the specific grants involved were not identified). A criminal investigation revealed that
the purchases occurred over several years and involved the collusion of a private vendor, and the
total amount misappropriated was never accurately determined. As a result of the investigation,
the official was terminated, paid restitution of $36,382 to the Department and $40,000 in fines,
and was sentenced to 18 months imprisonment. The Department did not reimburse FWS for any
of the Federal Assistance grants charged. Federal Assistance funds should be applied only to
activities or purposes approved by the Regional Director of FWS according to 50 CFR §
80.14(a). If otherwise applied, they must be reimbursed. Therefore, $52,540 of questionable
purchases should be recovered by the FWS.

Recommendation

       We recommend that the FWS resolve the $52,540 of questioned costs.

Department Response

        The Department agreed that FWS should resolve the issue of questionable purchases but
took exception to the amount, indicating that the amount in question has never been proven to be
correct.

Office of Inspector General Comments

        The response clarifies the discrepancy between the $52,540 of questioned costs contained
in the Single Audit and the restitution paid by the senior official. Because the restitution was not
related to the questionable purchases, it makes it clearer that the $52,540 is the correct amount to
question. However, the Department claimed that some of the questionable purchases were
legitimate but it did not identify those purchases. If the Department believes that some of the
purchases were for eligible costs of the grants, it should identify those costs and the grants to
which the Department believes they apply. The FWS can then consider those costs as part of its
resolution of the $52,540 in questioned costs. Therefore, FWS should resolve the finding and
implement the recommendation.

        3. Delhi Shooting Range Development. The Department obtained grant W-65-2 to
construct a shooting range at the Delhi Range Project. The project was never completed.
Although it obtained $17,859 in Federal Assistance, the Department only bought some clay
target throwers and constructed a dirt foundation. Even though $33,400 was reported as the


                                                 4
recipient’s share of net outlays, there was no record of costs having been incurred or
contributions having been received for the matching portion of this grant. We questioned the
amount of Federal Assistance drawn under the grant because the shooting range was not
completed and the Department did not incur or receive as a contribution its required matching
share.

Recommendation

       We recommend that the FWS resolve the $17,859 of questioned costs.

Department Response

        The Department stated that while the funds were drawn and expended in good faith the
project was unable to be completed. The Department indicated that FWS has given verbal
approval to use the clay target throwers on another project. In addition, the $33,400 reported as
recipient outlays represented the value of land on which the range was to be located and would
represent an in-kind match for the grant.

Office of Inspector General Comments

        Under the terms of the grant agreement, the Department was required to provide a
shooting range. Since the project was not completed, the Department was not entitled to the
Federal funds drawn down. As a result, we questioned the entire amount of Federal funds drawn
down. A portion of the funds drawn were used for clay target throwers. If the FWS approves
the Department’s acquisition of the clay target throwers, under the provisions of 43 CFR
12.72(f), title to the clay target throwers would vest with the FWS. Therefore, the clay target
throwers should be classified as FWS property in the property records of the Department as
contrasted with the other classes of property already maintained by the Department such as
license fee and general fund property. The response did not address the questioned costs for the
dirt work, or the issue of title to the clay target throwers. FWS should resolve the finding and
implement the recommendation.

B. Additional Findings
       1. Program Income. The Department deposited $479,657 in revenues to the
Conservation Fund that were generated on wildlife management areas receiving Federal
Assistance funds for their operation and maintenance. Sources of the revenue included rights-of-
way, land rental, oil and gas royalties, timber sales, alligator harvesting, and seismic testing.
These revenues were not identified as program income in grant agreements W-55-15 and
W-55-16 or reported on the respective Financial Status Reports (SF-269s). According to 43 CFR
§ 12.65, program income is gross income directly generated by a grant-supported activity
received by a grantee. We concluded that revenue produced from wildlife management areas
should be considered program income whenever grants for the operation and maintenance of
those wildlife management areas have been awarded.

        The Department did not report revenue from rights-of-way, land rental, oil and gas
royalties, alligator harvesting or seismic testing because these areas were never discussed with


                                                5
FWS. FWS Region 4 indicated that revenues from timber sales were not considered program
income because most Department land was purchased with State funds and therefore would not
be subject to Federal Assistance policies. As a result, revenue from timber sales was not
reported as program income. A schedule of revenues generated for the period covered by our
review follows.

                                     W-55-15          W-55-16      Total
             Rights of Way                $100        $ 32,152     $32,252
             Land Rental                 3,693          33,282      36,975
             Oil and Gas                 2,951           1,811       4,762
             Timber Sales              166,135        166,874      333,009
             Alligator Harvest          35,515          28,234      63,749
             Seismic Testing                -0-          8,910       8,910
                  Totals             $208,394         $271,263   $479,657

       We believe these revenues should be reported as program income on the wildlife
management areas cited above. In addition, program income should have been estimated in the
proposals for these grants.

Recommendations

       We recommend that the FWS:

       a. Resolve the $479,657 of unreported program income.

       b. Require the Department to disclose program income in future grant proposals.

Department Response

       Based on discussions with FWS and review of the pertinent regulations, the Department
agreed that revenue generated on Wildlife Management Areas managed with Federal Assistance
funds should be considered program income. However, the Department believed that revenues
from rights-of-way should be considered as proceeds from the sale of real property. The
Department will include program income and record such income appropriately in the future.

Office of Inspector General Comments

        We did not analyze each right-of-way to determine if the revenue generated from them
represented proceeds from the sale of real property or if it represented program income. The
Federal Assistance Manual (522 FW 6.7D) states that while minerals, oil, gas, timber, grazing
rights and other real property are normally considered part of the land, these interests may be
separated from the land by sale, lease, easement or other method of transfer and revenues from
the sale, lease or easement may be considered program income (emphasis added). We suggest
that the FWS request advice from the Solicitor’s Office as to the proper classification of
revenues generated from the granting of these rights-of-way. The Department’s response did not


                                                  6
address the resolution of the unreported program income for the period reviewed. FWS should
resolve the finding and implement the recommendation.

        The Department agreed with Recommendation B.1.b and stated that in the future, it will
include program income in grant proposals and financial reports as required. We consider this
action appropriate and FWS should address this recommendation in the Corrective Action Plan.

        2. Assent Legislation. In November 2002 the State passed a constitutional amendment
authorizing the State legislature to make budget adjustments necessary to avoid deficits by
transferring up to five percent of the appropriation or allocation from the fund to other funds.
The State deposits most of its license fees into the Conservation Fund. Both of the Acts require
that before any monies are apportioned to a State, the State assent to the provisions of the Acts
and pass laws that include a prohibition against the diversion of hunting and fishing license fees
for any purpose other than the administration of the State game and fish department (16 USC 669
and 16 USC 777). Since the Conservation Fund was not excluded from coverage by the
amendment, it appears that hunting and fishing license fees are not prohibited from being used
for purposes other than the administration of the State fish and game department.

Recommendations

       We recommend that the FWS determine whether:

       a. The constitutional amendment allows for the diversion of license fees.

       b. The Department may continue to participate in the Federal Assistance program.

Department Response

        The Department’s response included a detailed recital of events, including the subject
amendment to the State’s constitution and a discussion of the triggering mechanism under which
funds could be transferred. The Department stated that in fiscal year 2002, license fee revenues
represented only 47 percent of the total revenues deposited into the Conservation Fund. It also
stated that as long as other revenue to the Fund each year exceeded five percent of the
appropriations from the Fund by the State Legislature, license revenues would remain protected.
The Department concluded that because at present over half of the revenue deposited to the
Conservation Fund each year comes from sources other than hunting and fishing licenses, there
is no danger in the foreseeable future that the constitutional amendment could cause license fees
to be used for anything other than administration of the Department.

Office of Inspector General Comments

        We do not consider this response sufficient to resolve this matter because the
constitutional amendment allows for the transfer of funds from the Conservation Fund for
purposes other than administration of the State fish and wildlife agency in any year where there
is a deficit in any other fund. The use of one year’s results does not indicate what the results will
be for all future years. We do not know how much other revenue has been deposited into the
Conservation Fund in the past, whether such other revenue will continue to be deposited there,
and the amount of any such future deposits. We concluded that because there is no prohibition


                                                  7
against using the Conservation Fund for purposes other than the administration of the
Department, then there is no prohibition against using fishing and hunting license revenue for
purposes other than the administration of the Department. The law states that such a prohibition
is required in order for the State to participate in the Federal Assistance program. Accordingly,
FWS should resolve the finding and implement the recommendations.

        3. Annual License Certification. The Department completed and submitted annual
License Certifications for license years (LYs) 2000 and 2001. The certification for LY 2001
indicated that some licenses were issued to handicapped and disabled individuals at no cost to
the applicant and thus, did not generate any revenue. First available in LY 2001, these licenses
were for fishing and combination hunting and fishing. According to 50 CFR § 80.10(c)(2),
licenses that do not return net revenue to the State shall not be included in the annual
certification. While the fishing licenses were not included in the certification, the combination
hunting and fishing licenses were included. As a result, the annual license certification for 2001
was overstated by 1,774 licenses.

        The annual License Certifications also indicated that lifetime licenses, which are valid for
more than 1 year, were sold during LYs 2000 and 2001. These multi-year licenses have been
sold since 1992. According to 50 CFR § 80.10(c)(3), licenses valid for more than one year may
be counted in each of the years for which they are valid, provided that the net revenue from each
license is commensurate with the period for which hunting or fishing privileges are granted, and
sampling or other techniques are used to determine whether the licensee remains a license holder
in the year of certification. While a method is used to allocate revenue annually for each lifetime
license over the period for which it is included in the annual certification, the Department does
not perform sampling or other techniques to determine whether the licensees were valid license
holders in each year of certification. As a result, the number of lifetime licenses certified by the
Department in LYs 2000 and 2001 may be inaccurate.

        To prepare the annual license certifications, the Department used percentages based on a
survey conducted in 1993 to eliminate duplicate non-resident hunting and fishing licenses.
According to 522 FW 2.7(1), when surveys are used to eliminate duplicate licenses, a new
survey should be conducted every 5 years. Due to the outdated survey data that the Department
used to eliminate duplicate non-resident licenses, the number of non-resident licenses certified in
LYs 2000 and 2001 may be inaccurate.

Recommendations

       We recommend that the FWS ensure that the Department:

       a. Include only those licenses that generate net revenue in its annual license certifications.

        b. Develop appropriate techniques to determine that multi-year licensees were valid
license holders in the year of certification.

       c. Conduct a new survey or establish another technique to validate the annual adjustment
for duplicate non-resident license holders.




                                                 8
Department Response

        The Department concurred with the finding. The Department stated that licenses that do
not return net revenue were only included in the count of licensees for fiscal year 2001 and
accordingly, no further action regarding the counting of no net revenue licenses was warranted.
In order to determine if multi-year licenses should be included in the certifications, the
Department stated that the State Federal Assistance coordinators will work with the
Department’s economic staff to develop a method for determining valid license holders to be
used in the 2004 license year. Finally, the Department stated that duplicate non-resident license
holders were eliminated from the fiscal year 2003 certifications by using actual data from the
Department’s automated license system. Accordingly, it believed that this weakness had been
corrected.

Office of Inspector General Comments

       We believe the Department’s proposed corrective action is appropriate. FWS should
resolve the finding and implement the recommendations.

        4. Project Level Accounting. Some Federal Assistance grants with the Department
were comprised of jobs, with each job having a separate budget. However, the Department did
not accumulate the actual costs of these jobs and compare those costs to the corresponding
budgeted amount. Although the regulations permit the grantee to re-budget among identified
budgeted costs to meet unanticipated requirements, 43 CFR § 12.70(c) requires grantees to
accumulate the costs of projects (the Department projects were called jobs), compare them to the
project level budgets contained in the grant, and obtain the prior approval of the awarding agency
whenever such transfers between separately budgeted projects are expected to exceed ten percent
of the total approved budget. This regulation applies where the awarding agency’s share exceeds
$100,000. The following is a list of grants for which the Federal share exceeded $100,000.

    Grant No.    Description                             Grant Amount         Federal Share
    W-55-15      Research and Development                 $3,522,353           $2,641,765
    W-55-16      Research and Development                  3,539,200            2,654,400
    W-1-26       Hunter Education                          1,000,000              750,000
    W-1-27       Hunter Education                          1,000,000              750,000
    F-95-03      Sport Fish Habitat Management             1,315,600              986,700
    F-95-04      Sport Fish Habitat Management             1,349,840            1,012,380
    F-65-13      Aquatic Education                           433,333              325,000
    F-65-14      Aquatic Education                           433,333              325,000
    F-97-2       Stock Assessment–Marine Finfish             324,272              243,204
    F-97-3       Stock Assessment–Marine Finfish             324,272              243,204
                     Totals                              $13,242,203           $9,931,653

      Since the actual costs of each job were not monitored, we had no assurance that the
amount budgeted for a specific job was an accurate representation of the funds necessary to



                                                9
accomplish the work required. Also, there was no way to verify whether the budgeted amounts
were exceeded or whether amounts were transferred between jobs within a particular grant.

Recommendation

        We recommend that the FWS ensure that the Department accumulates and compares
actual costs to the amounts budgeted for individual jobs within grant agreements.

Department Response

       The Department stated accounting for costs at the job level was not performed because it
was not required by FWS. Beginning with the current fiscal year, costs will be accounted for at
the budget level for the appropriate grants as required by the regulations.

Office of Inspector General Comments

       We believe the Department’s proposed corrective action is appropriate. FWS should
resolve the finding and implement the recommendation.

       5. Asset Management. The Department identified personal (moveable) property in four
categories: Federal, Conservation, Rockefeller, and Marsh Island. Federal Assistance property
must be identified and controlled in order to properly manage the property in accordance with 50
CFR § 80.18(c). In addition, Federal Assistance property must be used only for Federal
Assistance activities. Since the Department did not specifically identify Federal Assistance
personal property (it was categorized only as Federal property), we could not determine whether
Federal Assistance property was being used for the purpose for which it was originally acquired.

        The Department conducts an annual physical inventory of moveable property. However,
the moveable property inventory was not accurate. Five items totaling $3,845 were no longer in
use, or the status needed to be updated (the item had been moved to another site, or was listed as
“unfound,” but was found during our visit). An additional 29 items, totaling $210,846, were
found at locations we visited but were not identified for those locations (the item location code
had not been updated or the item had never been added to the inventory). The inventory records
were inaccurate because they were not updated based on the results of the annual physical
inventories, or the annual physical inventories were not conducted properly. The Louisiana
Administrative Code, Title 34, Part VII requires that all items of moveable property valued at
$1,000 or more be placed on the statewide inventory system; a property location index be
established and maintained to track the location of property; and that an annual inventory be
taken. The Property Control Section has taken corrective action for these items.

Recommendations

       We recommend that the FWS ensure that the Department:

        a. Account for Federal Assistance property to assure that it serves the purpose for which
it was acquired.




                                                10
        b. Accurately update the moveable property inventory for additions, deletions, and
location changes.

Department Response

        The Department stated that the State has implemented a new asset management system
which should allow for the required accounting for Federal Assistance property once the
reporting components of the system are constructed.

Office of Inspector General Comments

       The Department’s proposed corrective action is appropriate and FWS should resolve the
finding and implement the recommendations.

        6. Labor – Common Costs. As a result of a finding in the prior Federal Assistance
audit, the Department modified the manner in which common costs (paid time off and fringe
benefits) were charged to Federal Assistance grants. To resolve that finding, the Department
stated that it would charge these costs to State funds until an allocation method was developed.
At the time of our review, an allocation method had not yet been developed. However, we found
11 instances where employees charged paid time off to Federal Assistance grants during the
period covered by our audit. OMB Circular A-87, Attachment B, Section 11.d.2, indicates that
the costs of authorized absences, such as holidays, annual leave and sick leave, are allowable if
they are equitably allocated to all related activities including Federal awards. Since the
Department has not issued a policy or implemented a method of allocating these costs equitably,
we cannot determine whether Federal Assistance grants were charged equitably for common
costs.

Recommendation

        We recommend that the FWS provide assistance to enable the Department to issue a
policy and implement a method of allocating common costs equitably to Federal Assistance
grants.

Department Response

        The Department concurred with the finding and pointed out that the majority of the costs
for paid leave are funded by the State and as a result, Federal grants are under-billed for these
costs. The Department also agreed that a leave policy is needed and that this matter will be
addressed.

Office of Inspector General Comments

        It is not required that a share of common costs be paid out of Federal Assistance and
license fee funds; however, the Department would be eligible for reimbursement of a share of
common costs. FWS should resolve the finding and implement the recommendation.




                                               11
       7. Posting of Federal Assistance Signs. The provisions of 50 CFR § 80.26 and the
Federal Assistance Handbook (Part 522 FW 7.11) indicate that Federal Assistance projects
should be marked with appropriate signs. During our site visits, we found that 5 of the
18 locations visited did not display the authorized Federal Assistance logos. Those locations
were Bayou Bonfouca Boat Ramp, South Shore Harbor Marina (pump-out station), and the
Manchac, Fort Polk and Alexandria Forest wildlife management areas. Department officials
explained that it was difficult to keep the signs posted as they are often taken as souvenirs.

Recommendation

       We recommend that FWS ensure that the Department properly post and maintain the
appropriate signs at all project sites.

Department Response

       The Department stated that, although it is difficult, every effort is made to ensure that the
appropriate signage is posted at Federal Assistance sites.

Office of Inspector General Comments

       FWS should resolve the finding and implement the recommendation.

8. Overstated Outlays Reported on Financial Status Report. The Department reported the
same costs to two grants (F-64-13 and F-64-14, Louisiana Cooperative Fish Disease Projects) in
SFYs 2001 and 2002. OMB Circular A-87 states that costs should be charged in accordance
with benefits received, and that any cost allocable to a particular Federal award may not be
charged to other Federal awards. Therefore, costs allocable to one grant may not be charged to
another grant. Since the costs were paid at the end of SFY 2001, both grants were mistakenly
charged for the same costs. The total outlays reported on the final Financial Status Report for
Grant F-64-14 were $4,460 more than actual costs. The error has been corrected, reducing the
state’s portion of outlays on a revised SF-269 dated March 20, 2003. The resulting State and
Federal outlay percentages remained in accordance with the grant agreement and the Acts.

Recommendation

       We recommend that the FWS accept the revised Financial Status Report as the final
Financial Status Report for grant F-64-14.

Department Response

       The Department stated that the revised Financial Status Report appears to have been
accepted by the FWS.

Office of Inspector General Comments

       FWS should resolve this finding and implement the recommendation.




                                                 12
        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written response by March 24, 2004, to the recommendations included in this report. Your
response should include information on actions taken or planned, including target dates and titles
of officials responsible for implementation. If you have any questions regarding this report,
please contact me or Mr. Owen Nicholson, Audit Team Leader, at (703) 487-5345.


cc:    Regional Director, Region 4
       U.S. Fish and Wildlife Service




                                               13
                                                              APPENDIX 1


LOUISIANA DEPARTMENT OF WILDLIFE AND FISHERIES
   FINANCIAL SUMMARY OF REVIEW COVERAGE

      Grant    Grant        Claimed       Questioned Costs
     Number   Amount         Costs      Total     Federal Share   Notes
  W-1-26      $1,000,000   $1,103,961
  W-1-27       1,000,000    1,003,912
  W-10-55         50,000       28,672
  W-10-56         50,000       43,534
  W-55-15      3,522,353    3,965,975
  W-55-16      3,539,200    3,776,601
  W-65-2          66,000       51,259   $17,859        $17,859     1
  FW-3-29        132,000      242,574
  FW-3-30        132,000      253,658
  F-3-47         346,112      348,671
  F-3-48         359,960      420,746
  F-18-31          8,000        8,000
  F-18-32          8,000        8,000
  F-23-29        100,000       44,323
  F-23-30        100,000       73,099
  F-53-14         60,000       65,620
  F-53-15         60,000       55,388
  F-60-14      1,206,000    1,076,726
  F-60-15      1,206,000    1,343,102
  F-61-14        682,500      409,566
  F-61-15        682,500      743,662
  F-64-13         23,920       34,685
  F-64-14         24,880       37,984     4,460                    2
  F-65-13        433,333      396,495   297,727          97,064    3
  F-65-14        433,333      425,839
  F-69-12         36,000       37,807
  F-69-13         36,000       38,610
  F-90-7          20,000          213
  F-90-8          20,000          196
  F-95-3       1,315,600    1,455,667
  F-95-4       1,349,840    1,450,095
  F-96-2          80,000       83,994
  F-96-3          80,000       85,786
  F-97-2         324,272      212,114
  F-97-3         324,272      292,376
  F-98-1         607,168            0
  F-99-1         322,000            0



                                14
                                                                                   APPENDIX 1


             Grant         Grant       Claimed               Questioned Costs
            Number        Amount        Costs              Total     Federal Share      Notes
         F-100-1             149,000           0
         F-101-1             100,000     117,159
         F-102-1             329,471           0
         F-103-1             134,252           0
         F-104-1              76,882           0
         F-105-1              25,000           0
         F-106-1             455,897     470,113
         F-107-1              72,109      81,817
         F-108-1           1,335,000      19,250
         F-109-1             212,000           0
         F-111-1             117,925           0
         F-112-1             880,125           0
         F-113-1              63,747           0
         F-114-1             351,000           0
         F-116-1             255,847           0
           Sub-totals    $24,299,498 $20,307,249          $320,046         $114,923
         Unspecified                                                         52,540      4
           Totals        $24,299,498    $20,307,249       $320,046         $167,463

Notes:

1. The entire $17,859 Federal share drawn down for the Delhi Shooting Range project was
questioned because the project was not completed (see Questioned Costs, 3. Delhi Shooting
Range Development).

2. The $4,460 was questioned because it was included in total outlays for this grant and the prior
grant. The Federal share was not affected and the final Financial Status Report has been adjusted
(see Additional Findings, 9. Overstated Outlays Reported on Financial Status Report).

3. The questioned amounts pertain to in-kind hours that were unsupported. Provided source
documentation supported only $24,692 of in-kind contributions for this grant; therefore, only
$74,076 of the Federal share was matched by in-kind contributions. The questioned costs were
calculated as shown below (see Questioned Costs, 1. In-Kind Contributions).

                                         Federal Share       State Share       Totals
          Outlays                         $171,140            $225,355       $396,495
           Less: Amount Supported           74,076               24,692        98,768
          Amount Unsupported               $97,064            $200,663       $297,727

4. The $52,540 pertains to questionable purchases which were charged to Sport fish grants but
could not be identified to specific grants (see Questioned Costs, 2. Unallowable Costs).



                                               15
                                                       APPENDIX 2


LOUISIANA DEPARTMENT OF WILDLIFE AND FISHERIES

                      SITES VISITED

          Frenier Boat Ramp
          Reserve Boat Ramp
          Bonnet Carre Boat Ramp
          Lac Des Allemands Boat Ramp
          Bayou Bonfouca Boat Ramp
          Mandeville Boat Ramp
          Madisonville Boat Ramp
          Iatt Lake Boat Ramp
          Cotile Lake Boat Ramp
          Lake Buhlow Boat Ramp
          South Shore Harbor Marina
          Lacombe Hatchery
          Pearl River Wildlife Management Area
          Manchac Wildlife Management Area
          Sandy Hollow Wildlife Management Area
          Fort Polk Wildlife Management Area
          Alexandria Forest Wildlife Management Area
          District Three Office, Alexandria, LA
          Headquarters Office, Baton Rouge, LA




                                  16
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240

              Phone:         24-Hour Toll Free                800-424-5081
                             Washington Metro Area            202-208-5300
                             Hearing Impaired (TTY)           202-208-2420
                             Fax                              202-208-6081

              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
